<html>
<title> - FUTURE OF PROPERTY RIGHTS IN CUBA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   FUTURE OF PROPERTY RIGHTS IN CUBA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2015

                               __________

                           Serial No. 114-51

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
95-131PDF                 WASHINGTON : 2015                  
________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida<greek-l>        ALAN S. LOWENTHAL, California
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 6/2/15 deg.
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Mauricio Tamargo (former chairman of the Foreign Claims 
  Settlement Commission).........................................     5
Mr. David Bradley (former chief counsel of the Foreign Claims 
  Settlement Commission).........................................    17
Javier Garcia-Bengochea, M.D., certified claimant................    28
Ms. Carolyn Chester Lamb, certified claimant.....................    34
Ms. Amy Rosoff, heir of certified claimant.......................    41
Ms. Anna-Lee Stangl, senior advocacy officer for the Americas, 
  Christian Solidarity Worldwide-UK..............................    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Mauricio Tamargo: Prepared statement.........................     8
Mr. David Bradley: Prepared statement............................    19
Javier Garcia-Bengochea, M.D.: Prepared statement................    31
Ms. Carolyn Chester Lamb: Prepared statement.....................    37
Ms. Amy Rosoff: Prepared statement...............................    43
Ms. Anna-Lee Stangl: Prepared statement..........................    51

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    64
Ms. Anna-Lee Stangl:
  Letter dated June 5, 2015, from Reverend Mario Felix Lleonart 
    Barroso to the Honorable Jeff Duncan, a Representative in 
    Congress from the State of South Carolina, and chairman, 
    Subcommittee on the Western Hemisphere.......................    65
  Letter dated June 8, 2015, from Reverend Omar Perez Ruiz to the 
    Honorable Jeff Duncan........................................    66
  Declaration of Rights of the Primera Iglesia Bautista de 
    Holguin......................................................    68


                   FUTURE OF PROPERTY RIGHTS IN CUBA

                              ----------                              


                        THURSDAY, JUNE 18, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172, Rayburn House Office Building, Hon. Jeff 
Duncan (chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order, and I would now like to recognize myself for an 
opening statement. Before I do, I will mention that votes will 
be called during this hearing, and we will adjourn. We will see 
how far we get, and then we will adjourn and possibly come 
back. And if we get far enough, we may just adjourn the hearing 
all together. But we will just see how far we get.
    Also, I want to ask unanimous consent for Tom Rooney from 
Florida, to sit on the dais when he gets here and offer a 
statement.
    Without objection, so ordered.
    As a businessman who is involved in the real estate 
industry, I have a keen level of interest in today's 
subcommittee hearing to examine the issues of property rights 
in Cuba, and U.S. and Cuban property claims against the Castro 
regime. I believe that in the Obama administration's zeal to 
engage the Castro regime at any cost, we have lost sight of a 
critical issue that has not received the priority that it 
deserves. Thousands of Americans and Cuban citizens suffered 
humiliation and financial distresses of having their private 
property stolen from them, some of them at gunpoint. Today 
there has been no justice for that their claims.
    Lest we forget, I think it is important for the American 
people to remember what led in part the U.S. embargo against 
Cuba. In 1959, Fidel Castro brutally seized power and quickly 
nationalized the American-dominated sugar and mining 
industries. He froze bank accounts and confiscated property 
from thousands of both Cuban and American citizens and 
businesses in what the Inter-American Law Review called the 
largest uncompensated taking of American property by a foreign 
government in history.
    This stealing of American private property in part led the 
U.S. severing diplomatic relations with Cuba in 1961 and 
enacting a trade embargo and sanctions. In 1964, President John 
F. Kennedy signed a bill into law authorizing the U.S. Foreign 
Claims Settlement Commission to begin a Cuba program to address 
the claims of U.S. citizens against the Castro regime. Since 
that time, the Commission has adjudicated almost 8,900, 8,900 
U.S. claims, finding almost 6,000 of those claims to be 
certified. When we look at the financial value of these claims 
today, the total cost comes to over $6 billion.
    Now the Obama administration's reengagement with the 
Communist Castro regime, restoration of diplomatic ties, and 
pursuit of normalized relations have been performed ostensibly 
to empower the Cuban people. However, I have not seen any 
evidence of things getting better for the Cuban people. In 
fact, since December's announcement, we have seen almost a 120-
percent increase in the number of Cubans fleeing to the United 
States; over 3,000 political arrests by the Castro regime; 
spikes in violence against democracy activists; and re-arrest 
of most of the 53 political prisoners who were released as part 
of the December agreement.
    The American people who decided to travel to Cuba under the 
relaxed Obama administration rule should at least be aware that 
their decision to spend money on Cuban hotels, tourism, rum, or 
cigars directly props up the Communist military intelligence 
services and human rights abusers in the Castro regime. 
Americans should know that the hotel they vacation in may very 
well be a property that was stolen from an American citizen.
    As I stated at our last subcommittee hearing on Cuba back 
in February, I strongly oppose the Obama administration's 
decision to normalize relations with the oppressive Communist 
Cuba Castro regime. U.S. law requires a change of the very 
nature of the regime through the establishment of democracy and 
allowance of freedom. U.S. law also requires the resolution of 
property claims issue.
    In 1996, Congress expressed its intent in the Libertad Act 
stating that the satisfactory resolution of property claims by 
the Cuban Government recognized by the United States remains an 
essential condition for the full resumption of economic and 
diplomatic relations between the United States and Cuba. That 
Libertad Act is not being followed by the Obama administration.
    If we are truly going to reengage with the Communist Castro 
regime, then I believe it is critical that we not only follow 
U.S. law, but for the purposes of upholding the rule of law 
worldwide, we negotiate only from a position of strength on the 
issue of property claims. Should we fail to do that, I fear 
that we would be setting a terrible example and signaling to 
other bad actors around the world that they will face no 
consequences for stealing American property. This would be a 
terribly harmful message to send.
    Last year I had the privilege of traveling with the full 
committee Chairman Royce, Ed Royce, and Ranking Member Engel in 
a bipartisan delegation to South America, where we visited some 
of our best partners in the hemisphere, including Colombia and 
Peru. During our visit to Peru, I was personally delighted to 
sit with award-winning Peruvian economist Hernando de Soto one 
evening over dinner. Hernando is known best for his work on the 
informal economy and on the importance of business and property 
rights. The main message of de Soto's work and writings is that 
no nation can have a strong market economy without adequate 
participation in an information framework that records 
ownership of property and other formal economic activity.
    It is in this spirit that I wanted to convene this hearing 
today because, in Cuba, most of what passes for economic 
activity is simply informal opportunities for the Castro 
brothers and the Cuban military to siphon off money to prop 
themselves up, spy on their people, deny basic human rights, 
and beat and torture people who disagree with them.
    So, in conclusion, the future of property rights in Cuba 
and the issue of U.S. claims against the Communist Castro 
regime should not be forgotten in any U.S.-Cuba reengagement. 
These issues impact not only U.S. business claimants with the 
highest amounts of certified law, such as Cuba Electric 
Company, North American Sugar Industries or Moa Bay Mining 
Company; these issues also have devastated individuals and 
families for generations.
    Today I hope that experiences that the witnesses will share 
will inform our actions, offer constructive ideas on what a 
responsible and just outcome on this issue would involve, and 
motivate the Obama administration to prioritize the needs of 
the American people above a legacy achievement with the 
Communist Castro regime. This hearing could not come at a more 
important time as recent press reports have indicated that the 
Obama administration has already made key concessions on 
limiting American diplomats' activities and a possible future 
Embassy in Havana, which follows its removal of Cuba from the 
State Sponsors of Terrorism list last month even though Cuba 
continues to harbor terrorists and proliferate weapons to bad 
actors around the world.
    With that, I look forward to hearing from our two panels of 
witnesses today, and I will now turn to the ranking member, Mr. 
Albio Sires, for his opening statement.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for 
holding this hearing. And I strongly concur with a lot of the 
comments that you made.
    We are here to bring attention to how the Castro brothers 
have confiscated thousands of properties from U.S. companies 
and Cuban citizens in the early years of the revolution. Before 
the expropriation began, over two-thirds of the Cuban economy 
was owned by private entities, many of whom were Americans. The 
Castro brothers started taking ranches and farms just months 
after Castro came into power and quickly moved to U.S.-owned 
oil refineries and other properties.
    Castro seized everything in sight, including 2 million 
acres of land, electric companies, the mining industry, 
warehouses, hotels, private properties, and bank accounts. 
Additionally, they seized almost all assets of Cuban nationals 
between 1959 and 1968.
    The Foreign Claims Settlement Commission has certified over 
5,000 claims and, when combined with interest, total almost $8 
billion. As the administration continues to normalize 
relationships with Cuba, we must take time to reexamine these 
claims and see how we can get justice for these claimants 
before further inroads are made between Cuba and the U.S.
    Many of the confiscated properties have been sold and 
resold, their owners deceased, and now their families are left 
fighting on their behalf. Most families were never able to 
recover either financially or mentally. Being forced to give up 
their homes, essential belongings, and millions of dollars 
worth of investments cannot go unanswered.
    How can U.S. businesses open up economic cooperation with a 
government who profited on the back of other people's hard 
work? Not only is it immoral to profit off of these stolen 
properties, but Cuba's past disregard for property rights 
creates an unstable investment climate for private businesses. 
There is no way to ensure that the Cuban regime won't swoop in 
and confiscate more properties or renegate--or renege on its 
so-called contracts. We must examine how a shift in 
relationship with Cuba will impact these long outstanding 
claims.
    The issue of confiscated properties by the Cuban regime has 
always been a major hurdle in normalizing the relationships 
with Cuba. Just because the administration has shifted the 
strategy doesn't mean we should detract from our effort to find 
an equitable and long overdue solution for the victims. Today 
we will be able to hear from experts from the Foreign 
Settlements Commission that have gone through the efforts of 
certifying these claims as well as victims whose families have 
lost their homes and businesses to the Castro regime's greed. I 
look forward to hearing from our panelists on how we can 
address these critical issues.
    Thank you.
    Mr. Duncan. Thank you, Ranking Member.
    By unanimous consent, we allowed Representative Rooney from 
Florida to sit on the dais. I now recognize Mr. Rooney for an 
opening statement.
    Mr. Rooney. Thank you, Mr. Chairman, and I will be brief. I 
will just say that I appreciate you having this hearing to the 
panel members that are here. You know, what brought this about 
for me was, as a Member of the Florida delegation, going to law 
school at the University of Miami and getting to meet some of 
the constituents or some of the citizens that lived down there 
and coming to recognize that as naive as I was at that point, 
that a lot of the people that I met were actually people that 
lived in Cuba, that left--that the ranking member was speaking 
of--thinking that some day, some day soon after they left Cuba, 
that they would lock their doors and that they would be back 
relatively in short order.
    And it just dawned on me talking to these people, who are a 
little bit older now, that they really believe something that 
if that would happen to American citizens, something so 
fundamental that you owned this property or you owned this 
business, and for whatever reason, you had to leave, and you 
turned around and locked the door behind you thinking that I 
will be back in a couple of days or a week or at the most, you 
know, a month, but that that which I built, that which I owned, 
something so dear to us as Americans as our property rights, 
would be mine again. And to have that decades, decades go by, 
and to not be able to return to that which is rightfully yours, 
for us to say that we are going to ease restrictions in Cuba 
and not follow the law, as Mr. Duncan referred to the 1996 
Libertad law, I think would be unconscionable and something so 
unfair as we know it as Americans is to deprive people of their 
rightful property.
    And a lot of people, even people on my side of the aisle, 
sometimes say: What is the difference between Cuba and China 
and other Communist countries that we do business with? I mean, 
after all, it has been a long time. Let's just forget about it 
and move on.
    The difference is that I have constituents, people that are 
alive and well, that owned property in Cuba, that left, that 
live in the State of Florida, that belief that our Government 
will take care of them, that are citizens now, but when they 
ease restrictions with Cuba, that when we do that as a 
government, we are going to follow U.S. law, and we are going 
to demand that this President first recognize by forcing the 
Castro regime to recognize the property rights of those people 
that are still alive today, living in Florida, that are 
constituents, and that it is our responsibility as their 
elected officials to make sure we follow the law.
    So when people ask you, ``What is the difference between 
China and other Communist countries that we do business with 
and Cuba?'' the difference is, is that they are our 
constituents, and we owe it to them to enforce the law, to 
follow the law, and to live the American spirit, which is 
property rights. That goes back to our very founding. And if we 
don't do that, then we are, I think, neglecting the very fabric 
of what this country is.
    So I really appreciate as we--as this administration 
decides to move forward in easing restrictions, if they are 
going to do that, the very first step in making what past 
wrongs there were right would be to make sure that our 
constituents in the State of Florida and across this country 
are made whole again by that which was taken from them, their 
property in Cuba.
    So, Mr. Chairman, Mr. Ranking Member, thank you for letting 
me sit in today. I appreciate you hearing this bill.
    Mr. Duncan. I want to thank the gentleman from Florida for 
his comments and remind other members that opening statements 
may be submitted for the record.
    Before I recognize the panel, let me just explain the 
lighting system. You have got 5 minutes. The light will be 
green until it gets to 1 minute. It will turn yellow, and then 
when you are out of time, it will be red. At that point in 
time, if you could just wrap up your final statement. And you 
have submitted your testimony for us beforehand, which we have 
had the opportunity to read, and so if you don't get through 
the complete statement, we have it. We have read it. We are 
understanding.
    But we want to get you on the record verbally, so I will 
now recognize our panelists, and our first panelist is Mr.--if 
I pronounce this wrong--Tamargo.
    Mr. Tamargo. Tamargo.
    Mr. Duncan. Mr. Tamargo, you are recognized for 5 minutes.

   STATEMENT OF MR. MAURICIO TAMARGO (FORMER CHAIRMAN OF THE 
             FOREIGN CLAIMS SETTLEMENT COMMISSION)

    Mr. Tamargo. Thank you, Chairman Duncan, Ranking Member 
Sires, and members of the subcommittee. It is an honor to 
appear before this great committee where I used to work. I have 
been a long time--it has been a long time since certified 
claims have been give then much public attention. I commend the 
subcommittee for convening this hearing, and I hope the 
subcommittee continues to play an active role in the long, 
overdue settlement of these claims. I will summarize my remarks 
and ask that the full text of my testimony be placed in the 
record.
    I also request, if possible, that the record be held open 
for those certified claimants who were not able to testify so 
they can submit a statement for the record.
    Over 55 years ago, the revolutionary Government of Cuba 
confiscated the real and personal property of thousands of 
Americans and others who were living and doing business in 
Cuba. To this day, that chapter in U.S. history represents the 
largest confiscation of American property and there has been no 
progress in settling these certified claims. I am encouraged 
but guarded by the possibility of serious negotiations between 
the United States and Cuba regarding the certified American 
claims.
    We have heard different numbers as to how many certified 
claims there are. There are, in fact, 5,913 certified claims. 
When certified, they were valued at $1.8 billion. Today they 
are valued at around $7 billion to $8 billion, due to the 6-
percent simple interest called for under international law and 
certified by the commission.
    No American claims program has been left pending and unpaid 
for this long. I do not count the Soviet program because 
although it is still pending and unsettled, it was partially 
settled.
    Many ideas and proposals are floating around as to how to 
settle these claims. Some have asked me about the property 
problem between the U.S. and Cuba. My answer to that is that 
there is no property problem because, unfortunately, there is 
no property. Under international law, the American property is 
gone. The Cuban Government confiscated it, but the U.S. has a 
right to fair compensation for its citizens.
    Not only do I believe the U.S. should settle for nothing 
less than the full price of the claims, plus 100 percent of the 
interest, but I call on the administration and the Congress to 
hold fast and not remove any key element further from the 
embargo that remains unless the claimants receive full and fair 
payment for their certified claims.
    As requested, I have a few legislative recommendations. 
First and foremost, these claims are the reason the embargo was 
created. Congress must not pass any legislation further easing 
the embargo unless these certified claims are paid and settled. 
We only get one shot at this. We have only one thing Cuba 
wants: It is access to the U.S. market through lifting the 
embargo. If the Congress gives that away without getting these 
claims paid, then the Congress will have failed to stand up for 
these American families and companies.
    Second, I urge the Congress to enact legislation to grant 
limited authority to the Foreign Claims Settlement Commission 
to update the certified claims as to who is the current 
certified claimant. As I have already explained, claims 
programs are not designed to go unpaid for 55 years. Multiple 
generations of claimants have come and gone, and it will take 
years to ascertain who are the certified claimants right now. 
Also, do the same for the Soviet certified claims. Not only is 
this good governmental housekeeping, but it costs us nothing, 
and it sends a strong message to Cuba.
    Thirdly, I am hopeful that the certified claims will be 
paid in these negotiations, but you never know. We have been 
waiting 55 years, and we may get the same status quo. We know 
the current American trade and travel business with Cuba is 
trespassing on stolen American property. We know this because a 
runway expansion at Jose Marti Airport is on land which is the 
subject of a certified claim and also probably true of other 
Cuban airports and the Port of Mariel and other Cuban ports and 
probably most of the infrastructure. Also, they all use land 
which is the subject of American certified claims.
    Congress needs to enact a trespass penalty of 10 percent on 
all trade, travel, commerce, remittances, toll calls, gifts, 
flyover fees, port duty, everything. The proceeds collected by 
the trespass penalty would go to a fund which would pay all of 
the certified claimants for their full amount, including 
interest. The trespass penalty would not release Cuba of its 
debt, but now the debt will be owed to the U.S. Government.
    Those doing travel and trade with Cuba should just consider 
the trespass penalty as the cost of using someone's property. 
The current ongoing, never-ending waiting is ridiculous and 
intolerable to the certified claimants. It is the U.S. 
Congress' responsibility to end this embarrassing 55-year wait 
by our fellow Americans.
    Fourth, the final recommendation is not to Congress. It is 
to all of those American families and companies who are holding 
certified claims against Cuba. I urge you to get engaged in 
this discussion and to write your Congressman, your Senators, 
the President, the State Department, and keep writing and 
calling them. American certified claimants need to demand that 
their claims be settled, and if they are not going to be 
settled, then they should be paid this trespass penalty. It is 
wrong to continue to hold these certified claimants hostage to 
this never-ending battle over Cuba policy. It is not fair to 
these American families and companies who did nothing wrong 
except have the courage to invest in Cuba.
    Thank you.
    [The prepared statement of Mr. Tamargo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Duncan. I thank the gentleman.
    In my haste, I failed to mention the biographies of the 
witnesses and panelists are in our binders, and we have had the 
opportunity to read through those.
    Mr. Bradley, you are recognized for 5 minutes.

  STATEMENT OF MR. DAVID BRADLEY (FORMER CHIEF COUNSEL OF THE 
             FOREIGN CLAIMS SETTLEMENT COMMISSION)

    Mr. Bradley. Yes, sir. Thank you. Good morning, Mr. 
Chairman, members of the subcommittee, thank you for inviting 
me. You have my bio, so you know I retired from Federal service 
in 2008 after 20 years as chief counsel with the Foreign Claims 
Settlement Commission. I am pleased to be invited here today to 
say some words about the Commission's Cuba claims adjudication 
program.
    As we know, following the overthrow of the Batista regime 
in Cuba and Fidel Castro's takeover on January 1, 1959, the 
Castro regime began a comprehensive drive to seize business 
enterprises, assets, and other private property on the island. 
Given the extensive American involvement in Cuba's economy at 
the time, American companies and individuals were particularly 
affected by these actions. Some of the takings were overt, such 
as the outright nationalization of certain industries under law 
1076 of December 5, 1962, and the expropriations under law 851 
of July 6, 1960, which were directed toward Cuban concerns in 
which Americans held majority interest. In addition, all 
properties of persons who had left Cuba were confiscated under 
law 989 of December 6, 1961.
    Other takings were more subtle such as administrative 
requirements placed on mining and oil concession holders to 
reregister their concessions under circumstances that made 
compliance impossible.
    One of the first U.S. responses to these actions was an 
effort by Senator Bourke Hickenlooper to amend the Foreign 
Assistance Act of 1961 to impose a trade embargo on Cuba and 
prohibit the furnishing of foreign assistance to the ``present 
Government of Cuba.'' However, the amendment was not enacted, 
and the Department of Treasury did not move to freeze Cuban 
assets in the United States until July 1963. Consequently, most 
of those assets, possibly as much as $500 million had already 
been transferred out of the country, primarily to Canada, by 
the time the blocking took place.
    In October 1964, Congress passed, as you mentioned, House 
of Representatives bill H.R. 12259, which became Public Law 
88666 and is codified as title V of the International Claims 
Settlement Act of 1949, as amended. The statute authorized and 
directed the Foreign Claims Settlement Commission to determine 
the validity and amount of U.S. nationals' claims against Cuba 
for expropriation and other taking of property and other assets 
affected on or after January 1, 1959, and certify its findings 
of the amounts of the losses sustained to the Secretary of 
State. In addition, the Commission was authorized and directed 
to determine the validity and amount of claims against Cuba for 
disability or death of U.S. Citizens resulting from actions 
taken by or under the authority of the Cuban Government.
    The purpose of the adjudication process was to compile a 
record of the claims which could eventually serve as the basis 
for a lump-sum settlement agreement with a future Cuban 
Government. The period for filing claims officially commenced 
November 1, 1965, and was to end on May 1, 1967. By law, the 
program was to be completed as of May 1, 1970. However, due to 
budget cuts from Fiscal Year 1969, the program could not be 
completed by the statutory time, and further legislation was 
finally obtained which extended it to July 6, 1972.
    As has been mentioned, a total of 8,816 claims were 
evaluated in the course of the program. Of these, 5,911 were 
certified as valid with a total value of over $1.8 billion, not 
including interest. Adding the interest component, the claims 
come to over $7.6 billion in worth.
    I should also mention that two small--two additional claims 
were certified by the Commission in 2006 in a small second 
program we conducted at the request of the Secretary of State. 
Of the claims, over $1.6 billion was certified in the names of 
898 American corporations, with 5,913 totaling $221 million 
certified in the names of individuals.
    We had 131 certifications in excess of $1 million, and the 
largest certification, in favor of the Cuban Electric Company, 
amounted to over $267.5 million in principal amount.
    This concludes my statement, and I will be happy to try to 
answer any questions you may have.
    [The prepared statement of Mr. Bradley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                        ----------                              

    Mr. Duncan. Well, I want to thank the panelists for 
excellent opening statements.
    I want to align myself with the comments by Representative 
Rooney. One of the fundamental principles of a free society and 
free economy is private property ownership. And the 
understanding that if you invest money in real estate, develop 
a home or a business, or business property, or even develop a 
business in general, that you own that property, and you have 
some sort of free assurances that it won't be confiscated by a 
government, whether it is this government or a government 
abroad if you are an American investor.
    And so the claims are clear that Americans and Cuban 
Americans--the Foreign Claims Settlement Commission has 
adjudicated a lot of these, as we have heard. So now we see the 
Obama administration acting in defiance of the 1996 Libertad 
Act and really in defiance, I think, of what the Foreign Claims 
Settlement Commission has proven through its adjudication. And 
so what is the role of the Foreign Claims Settlement Commission 
if we are just going to ignore its findings, if we are not 
going to apply those findings to future negotiations and 
normalization of trade?
    So the question I have to you is what role do you expect 
the FCSC to play in relation to the State Department's 
prioritization of the resolution of almost 6,000 certified 
claims? What role is the FCSC playing now with the 
administration?
    Mr. Tamargo?
    Mr. Tamargo. Traditionally, when those negotiations begin 
in other situations in previous settlement discussions, the 
Commission plays a technical supporting role. The lead 
negotiating--all of the negotiating is done by the State 
Department, and----
    Mr. Duncan. But it sounds to me like the State Department 
is ignoring.
    Mr. Tamargo. Well, they have put out some public statements 
to the effect of that. This is on their list of things to 
discuss with the Cuban Government, and but they have not as of 
yet to our--well, as far as the public is aware, the public 
record is aware, began those discussions yet.
    Mr. Duncan. Right. So there have been two Cuba programs 
with FCSC?
    Mr. Tamargo. Correct.
    Mr. Duncan. Almost 9,000 claims have been brought before 
those two programs. Should there be a third?
    Mr. Tamargo. It would depend on, traditionally, under 
international law, each country adjudicates the claims of its 
own citizens. And under international law, it was citizenship 
at the time of the taking. That is under international law. The 
U.S. Congress is not bound by it. And, you know, they could 
choose to interpret or create a program that would go beyond 
international law and adjudicate claims for claims of 
individuals that were not American citizens at the time. But 
one must be aware that there are millions of those.
    Mr. Duncan. Right.
    Mr. Tamargo. I would imagine that would encompass----
    Mr. Duncan. Millions of those that were Cubans at the time 
the property was seized that are now Cuban Americans because 
they have immigrated here.
    Mr. Tamargo. Yes, yes.
    Mr. Duncan. But the way I see it, they still have claims on 
property back in Cuba that was seized by the government when 
businesses were nationalized.
    Go ahead, sir.
    Mr. Tamargo. Traditionally, this issue of property 
ownership interruption by Communist governments have happened 
throughout history. And every country has had to create some 
sort of reconciliation commission. This problem ultimately will 
have to be dealt with by the Cuban Government.
    Mr. Duncan. Which doesn't seem willing at this point in 
time to make any concessions. They are just saying: Okay, we 
will open up our relations. We are not going to change our 
principles of economic freedom or the lack thereof. We are not 
going to give the Cuban people more freedom of speech, more 
freedom to peacefully assembly, more freedom to worship, more 
freedom to the Internet and access to free press, no 
information sharing.
    They are being kept in the dark. They had their property 
seized, and yet the Castro brothers are sitting there making 
demands on the United States Government if we want to go back 
in there and normalize relations. The Cubans aren't doing 
anything.
    And so just a followup question, do you think the Obama 
administration's policy changes on Cuba will have any effect on 
the status of these 6,000 claims?
    Mr. Tamargo. I am hopeful but guarded that they will be 
taken up between the two countries.
    Mr. Duncan. Oh, we are all hopeful.
    Mr. Tamargo. It is up to the Congress to make them happen.
    Mr. Duncan. Amen to that.
    Mr. Tamargo. Because it is the Congress that would need to 
lift the remaining elements of the embargo that have not 
already been lifted. And if Congress refuses to lift the 
embargo until these claims are paid, then these claims will be 
paid if Cuba wants access to the U.S. market.
    Mr. Duncan. And, honestly, I think the Congressmen and 
women that I talk to believe that we ought to keep the embargo 
in place until some of this is addressed, but I don't have a 
poll on that.
    Mr. Bradley, would you like to add anything to this 
discussion? If not, I am going to move on to the ranking 
member.
    Mr. Bradley. I would just say, speaking as a private 
citizen, I am aware that in past situations, such as--I would 
point to Vietnam in particular. Vietnam still is a Communist 
country, but it recognized--and certainly Senator Helms played 
a big role in insisting that property claims were taken up 
early in the progress of arriving at normalization between 
Vietnam and the United States. And so that same analogy should 
apply here, in my view. Or that same mindset should apply.
    Mr. Duncan. All right. Well, I appreciate it. I am going to 
turn to the ranking member. As you can see, I am a little 
passionate about this issue because I believe that the Castro 
brothers are making immense demands on the United States for 
this normalization. And the administration is just giving in 
over and over and over without asking for concessions from the 
Cuban Government if we are going go forward with this, more 
concessions for the Cuban people, which I have a heart for. And 
you heard some of the things I talked about.
    But I think that--I go back to Tom Rooney's comments, one 
of the fundamental principles of a free society and free 
economy is the right to own property, an understanding that I 
own this parcel, and you own that parcel, and I have got fee 
simple claims to this.
    And so I think this is an important aspect that I am glad 
we are doing this hearing today because before we go forward 
any more, this issue has to be addressed and I am glad we are 
addressing it today.
    I turn to the ranking member.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, it wasn't just corporations and warehouses.You 
know, many Cuban nationals lost their properties. I can tell 
you, I came to this country; I was 11 years old. I still 
remember the military coming into the house, taking inventory 
of any items that we had in the house because you could not 
remove any item from the house. If they came back after you got 
your visa and there were items missing, they would revoke your 
visa.
    I remember when they changed the currency, so if you had X 
amount of money in the bank the government only said to you: 
You can only have this amount, and we are taking the rest of 
your money.
    I mean, I just we will never--I don't anticipate that my 
parents, who built their own houses, they are both passed away, 
and you know, I might not be hopeful of anything. But I am just 
hopeful all of those people who worked their businesses, who, 
through their sweat, built something, a dream in their lives, 
could get some sort of compensation. And we cannot have a 
government in Cuba that stole that property and now use that 
property to continue their military machine on the island 
because all of those properties are owned by the military of 
Cuba. And they run the hotels. They run the businesses.
    So, for me, this is a crusade because I left when I was 11 
years old. And I have this opportunity to serve in this great 
body and this great country, which gives me the opportunity to 
express how I feel about what the Castro brothers have done. 
They have stolen property from people who worked all of their 
lives.
    So, with that, I am just going to ask, during your time at 
the Foreign Claims Settlement Commission, what were the 
challenges that you encountered?
    Mr. Tamargo. Thank you, Congressman.
    For me, my challenges were to remain empathetic but 
impartial because the claimants always had to prove their 
claim. And I, too, am from Cuba, and I experienced the same 
issue when I was a child--well, my family did when I was a 
child. And the stories of the claimants who are always quite 
emotional, and in my testimony, I describe the feeling of 
losing your property and business in this traumatic way, and I 
observed this in all of the claimants that I speak with, that 
it must be what it was--what it feels like when you lose a 
child because you never forget it.
    And people think it is just property, but to the people it 
happens to, it is not just property. It is their lives. They 
pour their lives into that house, that business, those shops, 
and when it happens to them, it is quite dramatic, and they 
never forget it. And that is why it is important that the 
Congress hold fast on the embargo and allow these claimants to 
find closure.
    But the Commission's work is very important. It has handled 
a lot of difficult issues. The claims process is transparent, 
so no one can challenge its validity or its approach to these 
claims because, as I explain later in the testimony, these 
negotiated settlements are two voluntary bilateral agreements 
between two countries, and both countries need to have 
confidence in the other country's claims. And so our claims 
need to be on the record, transparent, and clear as to the 
value and how we came to the value and who is the claimant and 
their nationality at the time. And that is all part of the 
claims process. And you have to be faithful to the claims 
process if you expect to have a successful negotiated 
settlement agreement.
    Mr. Sires. Mr. Bradley, would you like to add anything to 
that?
    Mr. Bradley. No. Mauricio was the chairman for----
    Mr. Tamargo. Eight years.
    Mr. Bradley [continuing]. Eight years. He has covered it 
pretty well.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Ranking Member.
    The chair will now go to Mr. DeSantis from Florida.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thanks to the witnesses.
    You know, it is puzzling to me dealing with the Cuba issue. 
We deal a lot with the Iran issue on this full committee, and 
it seems to be that the policies that the administration 
pursues are basically unilateral concessions to bad regimes. 
And, really, that serves as a detriment of the populations in 
those countries.
    I mean, in Iran, there is a green movement that was really 
threatening the viability of the regime. The administration 
chose to not embrace that because they wanted to try to have a 
better relationship with the ayatollahs, and what we have seen 
since then is us engage in a lot of negotiations on a nuclear 
issue where it has been concession after concession, and it 
doesn't seem like we have received much as a result.
    And I think the same thing with the Cuba issue, the policy 
is really a lifeline to the Castro regime and to the brothers 
and to the military. It is not doing anything to benefit the 
Cuban people. It is further solidifying the regime, and we are 
not getting, I mean, what have we received in the United States 
for these new policies? You know, we haven't received anything 
of note. They are still harboring terrorist fugitives in Cuba, 
people who are enemies of the country.
    So it is really, really frustrating and the property to me 
is just an easy issue because if you are having a new 
relationship and you want to have--and the regime is going to 
move toward openness, well, obviously, you give back the 
property. I mean, to me, that is just a bare minimum. And we 
haven't seen any property given back.
    So this whole policy, I think, is not going to be 
successful, just as the Iranian policy is not going to be 
successful. I know that we are going to be voting, and I know 
we have another panel, so I really appreciate your testimony, 
both of you.
    I will go ahead and yield back the balance of my time so we 
can move forward.
    Mr. Duncan. I want to thank the gentleman.
    And I was just monitoring votes, which they say they are 
going to call in a few minutes.
    So Mr. Donovan from New York is recognized.
    Mr. Donovan. Thank you, Mr. Chairman.
    That is the chairman's way of telling me be very brief. As 
my friend from Florida just said, there are people like Joanne 
Chesimard, who have escaped the justice system of our United 
States after killing a New Jersey State trooper, and we are not 
demanding her return before we negotiate. And the poor people 
of Cuba whose human rights are still being violated; we are not 
asking for anything in exchange. It seems like the regime is 
making all of the demands on our country.
    So I just wanted to thank you first for coming here and 
addressing this important issue for the Cuban people, the 
residents there, and ask if you think there is anything else. I 
mean, you are well aware of what Congress is doing to try to 
rectify this wrong. Is there anything else that in your opinion 
should be done by this legislative body that will help this 
process along?
    Mr. Tamargo. Thank you, Congressman.
    Three things: Do not lift the remaining elements of the 
embargo that are in place; two, create the housekeeping and 
updating of the current certified claims; and, three things, 
create this penalty, trespass penalty, so that these certified 
claimants no longer are held up by this gridlock over Cuba 
policy. Those three things should be done.
    I would also point to the Libyan settlement agreement as a 
possible model because that was a very complex settlement 
agreement. It took a long time. The Congress was involved in 
that one. Unfortunately, I don't see the Congress involved in 
the current ongoing negotiations with Cuba.
    But at some point, the Congress needs to become involved 
because there are many more elements to this normalization 
process besides the certified claims. There is the Joanne 
Chesimard matter and the other criminals. There is the 
judgments that exist in the U.S. If there ever is commerce 
between our countries, judgments could be attached to certain 
commerce that would be going on. So a lot of other issues have 
to be dealt with, and the Congress is going to have to be the 
one to deal with them.
    Mr. Donovan. Thank you.
    Mr. Duncan. The gentleman--finished?
    Mr. Donovan. Yes.
    Mr. Duncan. Okay. I want to thank the gentleman. He is a 
brand new member of the subcommittee, and we want to welcome 
him, a new Member of Congress as well.
    They have just called votes, so what we would like to do is 
go into recess, pending call of the chair. Come back as soon as 
we can after the last vote, and what we will do is, we will 
adjourn this panel. And when we reconvene, we will bring up the 
next panel.
    I want to thank the panelists for being here, great 
testimony, and great work, and I look forward to working with 
you.
    And, with that, we will stand in recess.
    [Recess.]
    Mr. Duncan. We will go ahead and reconvene the hearing and 
welcome our second panel. Their biographies are in the 
information provided to the committee beforehand.
    I will go ahead and recognize Dr. Garcia-Bengochea.

 STATEMENT OF JAVIER GARCIA-BENGOCHEA, M.D., CERTIFIED CLAIMANT

    Dr. Garcia-Bengochea. Thank you and good morning.
    My name is Javier Garcia-Bengochea. I am a neurosurgeon in 
Jacksonville, Florida. I'm here not to discuss the litany of 
atrocities emblematic of Cuba under a Castro but to testify 
about the importance of property. It is sufficient prologue to 
say that, in Cuba, virtually everything is stolen.
    My family left Cuba when I was 15 months old, after Fidel 
Castro confiscated 386 Cuban businesses on October 14, 1960. 
One of these, La Maritima Parreno, established in 1919, was a 
commercial shipping port and warehouses in Cuba's second 
largest city, Santiago, and a privately held Cuban corporation 
in which we had significant ownership.
    La Maritima and its president, my cousin Desi Parreno, had 
supported the revolution in its difficult early days. Fearing 
arrest if he challenged the dictatorship, Desi left Cuba the 
following day, having transformed from progressive to 
conservative overnight.
    A Princeton graduate and valedictorian of his 1938 class, 
Desi was no rube. He understood the impact of the confiscations 
on the rule of law and order. Like my parents, he feared civil 
war. Four days later President Eisenhower initiated sanctions 
that became the embargo. Eventually, Desi's brother, Alberto, 
an American citizen and New York lawyer would receive 
certification from the U.S. Treasury for his loss.
    The world would isolate Cuba only to resume relations after 
settling the relatively small international claims. The claims 
of Americans and Cuban nationals, by far the largest groups, 
remained unsettled. These are the very reasons for the embargo, 
yet, incredibly, until today, they have yet to be mentioned, 
despite that Cuba has confiscated billions in foreign assets 
and incarcerated dozens of foreign executives, some without 
charges since 2008 alone.
    Americans assume when they invest in Cuba clear title and 
basic protections will be in place. Nothing could be further 
from the truth. Contract sanctity, an independent judiciary, 
and transparent regulatory and enforcement agencies do not 
exist there.
    Every American enterprise in Cuba, including tourism, will 
necessarily traffic in stolen properties, including brands and 
trademarks, maybe those of an American.
    That has certainly been my experience. The State 
Department, for example, has occupied a penthouse apartment 
since 1977 in a building I own without my permission, much less 
payment at least.
    At least two groups, Smith College and The Met, have 
received licenses to traffic in my port property.
    Countless licensed travelers have paid admission to 
Havana's Museum of Fine Arts to view paintings stolen off the 
walls of our home.
    Foreign entities Fred Olsen Cruise Lines and China Harbor 
Engineering Company do business in the U.S. while using my 
stolen port.
    How is that right or even legal? The claims must be 
settled, or there will be conflict. Although Cuba is bankrupt, 
there are ways this can be accomplished. They can simply return 
the property, despite the unsavory proposition of partnering 
with totalitarians.
    Cuba can pay with earns from state-owned tourism, rum, art, 
and tobacco sales. Remittences to Cuba supporting ventures 
using stolen property could be taxed. Anti-trafficking laws 
should be robust and enforced, like title IV in the visa 
application. Title III of Helms-Burton should no longer by 
waived. If a foreign terrorist who damages our property abroad 
can stand trial in U.S. court, so can foreign traffickers.
    If Congress eliminates the embargo and leverages without a 
fair settlement, then the U.S. Government should contribute. 
So-called business groups such as Engage Cuba and the U.S. 
Chamber of Commerce, who disgracefully lobby to lift sanctions 
without considering the claim, should pay, as well as companies 
who profited from sales allowed to Cuba since 2003.
    The claimants can receive tax credits and effectively pay 
themselves. The marketplace should be created to permit 
competitive bidding for the claims. When change, democracy 
comes, joint ventures and contract between the regime and 
foreigners will be canceled. Confiscated properties will be 
returned to the rightful owners.
    Unfortunately, American enterprises that capitulate with 
Cuba's dictatorship will oppose change. We have linked their 
success to the survival of the Castro regime.
    I will finish with an encounter in Cuba 2 years ago. Before 
the revolution, my father was Cuba's premier neurosurgeon and 
considered a pioneer of modern neurosurgical training there. I 
was invited to speak in a neurosurgery meeting in Havana, and 
after initially declining, I decided to attend. Ignatio, which 
is not his real name, owned a taxi service of vintage American 
cars. He was an IT specialist at a foreign firm in Cuba that 
closed after being robbed by the regime who overlooked turning 
off his Internet connection. He ordered parts online from the 
U.S. Brought in by mules and impeccably rebuilt his 1959 Bel 
Air. Upon congratulating him for his success, he expressed deep 
concern that, as others made money and spent conspicuously, 
they, the government, would confiscate everything ``when it was 
no longer convenient for them.'' In a surreal yet transcendent 
moment, he admitted he had become ``what you call in your 
country a conservative.''
    Ladies and gentlemen, what is past is prologue. Unless the 
claims are settled, any American enterprise in Cuba will have 
the legitimacy of a drug deal. Trafficking and stolen property 
is not economic opportunity. It is not pro-business or normal. 
It is criminal and immoral. Property rights are the foundation 
of our economy and society. They promote competition through 
nonviolent and lawful means and define our human rights. 
Without them, there is no capitalism or economic development. A 
just claims settlement will protect future American businesses 
in Cuba and burgeoning Cuban entrepreneurs.
    The strength of our relationship with Cuba will directly 
correlate with the strength of the claims and settlements. 
Indeed, these claims are a litmus test of government and civil 
society itself. Validating the kleptocracy will undoubtedly 
bring more confiscations and the prospect of sanctioning Cuba, 
an embargo, again. To paraphrase the prophet Isaiah: Peace is 
the work of justice, so too is normalization.
    Thank you very much.
    [The prepared statement of Dr. Garcia-Bengochea follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Duncan. I want to thank you for that testimony.
    I want to thank all the witnesses for sharing their stories 
with us today.
    I recognize Ms. Chester lamb.

   STATEMENT OF MS. CAROLYN CHESTER LAMB, CERTIFIED CLAIMANT

    Ms. Chester Lamb. Thank you, Chairman Duncan, Ranking 
Member Sires, and members of the committee for your leadership 
and attention to this matter to Americans and throughout the 
United States. We have been waiting a long time.
    My name is Carolyn Chester. I live in Omaha, Nebraska. I am 
a single, divorced mother of one teenaged son. And I have been 
the sole supporter of my family since 2010. I have a modest 
house. I live a modest lifestyle. And I drive a 16-year-old 
car.
    I represent my family's claim, number 1704. My father was 
Edmond Chester, and he was the director of CBS News. But most 
of you probably have never heard of him. My father supervised 
famed reporters, such as Edward R. Murrow, Eric Sevareid, and 
Howard K. Smith, all recognizable names, but not his.
    My father a true patriot and combatted communism as a 
soldier in World War I and an executive with CBS when he worked 
with our State Department's Office of Inter-American Affairs' 
Voice of America. When the Communists took Cuba, they also took 
over the radio stations, TV stations, newspapers, and they were 
able to manipulate and rewrite history. That is when the lies 
an slanders of those who were in Cuba before 1959 started.
    My father's best friends were all patriots, and one of them 
was my godfather, General T. McInerney, who served as 
lieutenant colonel under General Eisenhower's staff and the 
director of public relations for the U.S. Department of 
Justice. Excuse me, I am a little nervous.
    I was just 6 months old when my family's properties were 
taken. So I refer to the letter that my father wrote to the 
Foreign Claims Settlement Commission, which explains the 
circumstances. Their property was actually taken in January 
1959, before Castro created laws to make it legal to steal. 
They took an 80-acre farm from the Isle of Pines, Cuban 
telephone stock, our cars, jewelry, furniture and all our 
personal possessions that were in our apartment in Miramar. My 
parents spoke frequently about Cuba and what happened to them, 
and they thought justice would be served during their lifetime, 
but it was not.
    There was a time that our legislators and fellow Americans 
cared, but with time and memories passing, the confiscation has 
faded. It is almost as if the event has been erased from time 
and history. However, this still happened. It is very real, 
personal to us and just because it happened a long time ago 
does not mean it didn't happen because it did.
    I know from speaking to people about the U.S. certified 
claims that most don't understand anything about it, but it is 
very simple: We are Americans who were living, working 
investing in Cuba when the Communists took over and took our 
properties. We were not at war with Cuba, and this was the 
first time in U.S. history that American properties were 
expropriated during peacetime. Families lost their livelihoods 
and suffered financial ruin for the loss of their possessions. 
Castro didn't just confiscate out properties, but he also took 
the hopes, dreams that our parents once had for our future. 
Excuse me.
    The confiscation also affected my father's health. I was 
only 11 years old when his health began to decline. I remember 
that my father was in and out of hospital many times over the 
years, and my mother took care of him for many years, always 
hoping that he would improve. But he did not. Edmund Chester 
died 1973 when I was 15 years old. I never really knew what he 
died from, but looking back at it, I think it was from the 
Cuban loss and the stress. It caused him a series of strokes, 
and he also suffered from bouts of confusion. I remember one 
incident when I was just a little girl. He was frightened 
because he thought Castro's henchmen were in the house wanting 
to kill him, but nobody was there.
    So it was not until much later on in life that I understood 
why he was so scared. In 1959, a group of Castro's men shot at 
our home as they drove into our driveway. I remember hearing 
about this when I got older, and I also remember seeing the 
bullet holes wall in our wall of our family home in Mount Dora, 
Florida. So his paranoia was not unwarranted.
    After my father passed away, my mother was left alone to 
raise her children without any source of income. My mother did 
the best she could, and in the end, she sold everything, 
including personal items to survive and support us. We never 
faulted her for selling our inheritance in order to make ends 
meet. And in the end, we were left with debt to pay back her 
creditors. We didn't abandon our properties. They were taken 
from us. And in many cases, claimants' properties were taken at 
gunpoint by Castro's soldiers.
    We didn't have any warning by our Government that the new 
Cuban Government was planning to steal our properties, yet 
apparently Castro's manifesto was writ 10 years ago and 
published in Mexico. He threatened that he would do this, and 
he did. And our Government failed to protect us, and now some 
55 years later, here we are defending our claims. We are 
Americans who were the victims and not the culprits.
    The notion that claimants should discount their claims in 
order to make way for commerce is unacceptable. We are not 
responsible for the economic failures of the communism since we 
have already paid with our family fortunes. Furthermore, 
punitive damages for the pain and suffering that this has 
caused our families, along with 55 years of waiting, should 
have been included in this determination of the value of our 
claims.
    All foreign businesses have 50/50 partnerships with the 
Cuban Government, so that means profits are being split. So the 
United Kingdom and Canada, who are our allies, have enacted 
laws to protect their Cuban investments from our Helms-Burton 
Act. When a foreign company operating in Cuba opts--pays their 
workers' salaries, it must all go to the Cuban Government, who 
keeps 96 percent of it, leaving their worker with a pittance of 
their salary, and so they are treated as slaves.
    The Cuban Government also collects loss of money skimming 
off the remittence sent by Cuban Americans to their relatives 
in Cuba. The Cuban Government does have a way to pay us back. 
They just don't want to because they are used to taking.
    I know that many will still think that the Cuban Government 
is poor, and that's fine. But you must realize that once the 
floodgates of trade with the U.S. opens, there will be means to 
pay us back, and we will accept payments, as long as it is paid 
back in full.
    It is also very disturbing for me to hear that those 
working uncomfortably close with the Cuban Government--
Americans--tell us that we should only get pennies to our 
dollar. It is well-known fact that the junta running Cuba has 
hired expert international accountants and lawyers to hide 
their fortune in offshore accounts that can never be traced. 
Our Office of Foreign Asset Control has collected billions and 
billions in fines from banks and businesses that broke our 
laws. So a portion of that money should have been used to pay 
back the Americans.
    Another solution would be to get another entity to pay our 
debt. There are a lot of U.S. conglomerates that are biting at 
the bit to do business with the Cubans. And if they want to get 
rid of us because they cause an obstacle, they should just 
pay--buy our debts and deal with the Castros themselves because 
we have been dealing with it for 55 years.
    There is also Cuban money that was frozen a long time ago 
that should have been part of the legislation. But that was 
admitted. All we want is our payment for our claims set by the 
Foreign Claims Settlement. And I think 55 years of a lifetime 
is waiting too long.
    Thank you for your attention in this matter. I am finally 
feeling like someone gives a damn. God bless you.
    [The prepared statement of Ms. Chester Lamb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you, Ms. Chester Lamb.
    Ms. Rosoff, 5 minutes.

    STATEMENT OF MS. AMY ROSOFF, HEIR OF CERTIFIED CLAIMANT

    Ms. Rosoff. I'm here on behalf of my family, especially my 
mother, who is 80 and could not be here today. I am 
representing the three certified claims my family has filed 
with the Foreign Claims Settlement Commission.
    Thank you, Mr. Chairman and members of the committee for 
the opportunity to share my family's story.
    My grandfather, Morris Schechter, later called Mauricio, 
moved to Cuba in 1902. He started a business and was a founding 
member of the United Hebrew Congregation in Havana. In 1913, he 
married my grandmother, Jeannette, and they became pillars of 
the Cuban American Jewish community. Jeannette and Mauricio had 
four children, two of whom died in Cuba and are buried in 
Guanabacoa Jewish Cemetery that Mauricio helped consecrate in 
1910.
    My grandmother's house is the main part of CU-1458. My 
cousin, Robert Schechter, visited Cuba as part of a mission 
trip several years ago and was actually able to visit the 
house. At the time, and as far as I know to this day, it was 
being used by the Chinese Embassy. Claim CU-1090, filed by my 
father, Roy, is based on the value of stocks and business 
holdings, including a shirt factory and wholesale business, a 
farm, and a portion of my grandmother's house.
    My father born June 1924 and attended Ruston Academy, a 
bilingual school. He later attended the University of Michigan 
but soon enlisted in the U.S. Army and fought in the Pacific 
theater during World War II. He returned to Cuba after the war 
and worked in the family business Compania Onyx, which 
manufactured clothing.
    My father took over the business following the death of his 
father and older brother. In 1957, he married my mother, Lois 
Levine, and she joined him in Cuba. My maternal grandfather, 
Herbert Levine, also invested in Cuba and formed Rainbow 
Development Corporation, claim CU-611. This claim is comprised 
of attractive land that had timber and very pure silica sand. 
They grew tobacco, tomatoes, and built a saw mill that provided 
jobs for local residents. The Saw Mill was sabotaged during the 
revolution and set on fire. My mother said they think it was 
because they were Americans.
    The last time my parents went to the farm, planning to do 
the payroll, they were met by armed soldiers, and after a brief 
discussion with them, my parents drove away, never to see the 
farm again. Immediately after the revolution, business was 
actually good. In fact, my father invested money in updating 
machinery at the factory. After about 6 months, however, Castro 
imposed regulations that made it impossible for the factory to 
be productive. Essential commodities, such as buttons and 
bindings, were impossible to find since they couldn't be 
imported. So they had no means to really make a living anymore.
    Leaving Cuba was a very difficult decision for them, but 
since they couldn't make a living, they really felt they didn't 
have a choice. They paid off all of their debts so that when 
they could one day return to Cuba, they would be in good 
standing. They left on one of the last ferries to Key West in 
April 1961, taking only clothes with them.
    My mother hid her wedding ring in a cloth diaper she 
stained with vanilla and smuggled it out in my brother's diaper 
bag. She figured that if the soldiers wanted to search a dirty 
diaper bag, they were welcome to her ring. They ended up in 
Nyack, New York, staying with my mother's parents.
    My father had great difficulty finding a job and eventually 
went to work in my grandfather's shoe store. I grew up knowing 
that my father hoped he would one day return to Cuba, but he 
passed away in 2004. And I know a part of him is still in Cuba.
    My grandmother, Jeannette, didn't plan on leaving Cuba, 
since her husband and two children were buried there in 
Guanabacoa. She left on what she thought was a vacation, but 
the political climate changed while she was in the States with 
family, and she couldn't return.
    My grandmother was in her seventies, frail, and had left 
her home with virtually nothing. She settled in Miami and lived 
with her<greek-l>e deg. sister-in-law where they lived very 
frugally in a small apartment. She spent last years in a 
nursing home and passed away at the age of 96, heartbroken that 
she never returned from her vacation.
    I would love to reclaim ownership of my grandmother's 
house. It is truly a family legacy and has great sentimental 
value to us. I don't know how realistic that is, but as far as 
the other two claims, I think that a fair, just financial 
settlement may be the best outcome. My father and grandmother 
had their homes, businesses, property, and investments stolen 
from them. There is no way to quantify it. Their lives were 
redefined without their consent and multiple generations of our 
family have been affected. When my father filed the claims, it 
was in good faith that they would be honored and settled 
fairly.
    We look to you as our Representatives to champion--not just 
a new chapter in the political playbook--but to work side by 
side and as innovators in advocating justice. There is bound to 
be burgeoning opportunity in Cuba in the next few years, but it 
should not be at our expense. In this way, perhaps a plan can 
be crafted that ensures fair compensation to those of us who 
had property seized while also allowing investment in a 
brighter future for the Cuban people.
    Thank you.
    [The prepared statement of Ms. Rosoff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Duncan. Thank you so much for that testimony.
    Ms. Anna-Lee Stangl.

 STATEMENT OF MS. ANNA-LEE STANGL, SENIOR ADVOCACY OFFICER FOR 
        THE AMERICAS, CHRISTIAN SOLIDARITY WORLDWIDE-UK

    Ms. Stangl. Good morning, thank you so much, Chairman 
Duncan, for allowing me to give this testimony this morning. 
And thank you to all those in attendance for your attention to 
this important issue.
    Before I begin my testimony, I would like to ask that a set 
of letters from Cuban pastors to you, Chairman Duncan, be 
entered into the record.
    Religious groups of all types, Catholic and Protestant as 
well as other religious groups in Cuba, saw many of their 
properties confiscated in the years following the revolution. 
The return of some of these properties has been a key focus 
area of talks in recent years between the Roman Catholic Church 
and the Cuban Government.
    Other religious groups have also held dialogues with the 
Cuban Government with the same objective with varying degrees 
of success.
    In recent years, the churches most vulnerable to the threat 
or act of government confiscation of their property have been 
what are usually referred to as house churches. Many are actual 
houses that have been converted by the owner at some point into 
a church. Others are buildings built more recently on private 
property and used exclusively as churches but without permits 
for religious activity.
    Properties linked to unregistered religious groups are 
particularly vulnerable. One emblematic example have been the 
property located at Avellaneda 278 between San Esteban and San 
Martin Streets in the historic city center Camaguey. This 
property was acquired by the Reverend Omar Gude Perez and his 
wife Kenia Denis Bravo in 2003. A relatively large property for 
the location, it has acted as family home and place of worship. 
It is also a training center for church leaders from across the 
country who are affiliated with the Apostolic Movement, a 
charismatic Christian network of churches that authorities have 
refused to register.
    Before leaving the country in 2013, having received asylum 
in the United States, Reverend Gude and wife officially 
transferred the property to their nephew, Reverend Yiorvis 
Bravo. The transfer was carried out legally, in line with Cuban 
laws. The transfer papers were in fact signed by government 
notary. Reverend Bravo Denis was already living in the property 
with his wife and small child and subsequently took over the 
church and religious training center.
    In September 2013, the government summoned Reverend Bravo 
to a court hearing where they summarily found his ownership of 
the property to be invalid, despite the paperwork provided, and 
declared it belonged to the government. The government notary 
who had signed off on the transfer did not appear. Reverend 
Bravo refused to vacate the property and was subject to a day's 
long active repudiation.
    Shortly thereafter, Reverend Bravo was summoned by housing 
ministry officials, who offered to allow him to stay on the 
property as a rent-paying tenant to the government if he agreed 
to submit all planned religious activities to the government in 
advance. The government set the rent for his own property at 
$300 per month, 15 times the annual salary for a Cuban.
    He turned down this offer, refused to sign the papers, and 
stated his intention to remain in the property. To date, he has 
managed to do so, although the government has repeatedly 
declared that it still considers itself to be the owner of the 
building and reserves the right to evict the family any time. 
We believe they have not been evicted by force thus far because 
the case has received international attention. But the 
vulnerability of the family, who have been stripped of property 
rights, remains of great concern.
    This year on May 21 the legal offices of Poblete Tamargo 
submitted a request for precautionary measures on behalf of 
Reverend Bravo to the Inter-American Human Rights Commission. 
Both Reverend Omar Gude and Yiorvis Bravo have submitted 
letters, which I mentioned earlier.
    We regularly receive reports of threats of confiscation of 
properties from unregistered religious groups, such the 
Apostolic Movement, but the government is also guilty of 
targeting the property of historic and registered religious 
groups. The threat or act of confiscation of church properties 
has often appeared to be a tactic of the government to pressure 
or punish a church or larger denomination.
    One of the most egregious cases was the 2012 retroactive 
nationalization of the historic property belonging to the 
Baptist Church in Yaguajay in the Province of Sancti Spiritus. 
The church is part of the Western Baptist Convention of Cuba, 
one of the largest historical and registered denominations in 
Cuba.
    More recently, CSW has received worrying news that new 
legislation, which came into effect in January of this year, is 
being used to justify the arbitrary expropriation of private 
property, including religious properties. On the surface, legal 
decree 322, the general law on housing, appears to be meant to 
regulate private properties, mostly homes, and enforce zoning 
laws, following other reforms that affect property rights.
    However, our contacts on the island say that the law is 
being used by government officials to claim the right to seize 
church properties and to force the churches into the role of 
paying tenants. You may recall this is identical to the offer 
made to Reverend Bravo in 2013 prior to the adoption of the 
law, which suggests that it is a strategy that has been in 
development for some time.
    Cuban lawyers have told CSW that although the law does not 
specifically mention religious groups, government officials 
have claimed it gives them authority to expropriate property 
when they deem it necessary. To our knowledge, the largest 
church to be effected thus far by legal decree 322 is the 
Maranatha First Baptist Church in Holguin. This is another 
registered and historic religious property. Last month, the 
leadership of the church was informed by provincial Communist 
Party officials and housing ministry officials that their 
property was being confiscated and their status changed from 
owners to renters. The church has held title to the property 
since 1947, originally through the American Baptist Home 
Mission Society of Cuba, and was officially registered as part 
of the Eastern Baptist Convention of Cuba in May 1954. Leaders 
of the church have published an open letter calling for support 
as they resist government attempts to seize their property.
    I am humbled to be here today, speaking on behalf of Cuban 
men and women who have for generations now maintained and cared 
for religious properties which have been and are sanctuaries 
for hundreds of thousands of Cubans in the face of great 
pressure and open hostility.
    While this is a historic problem, it has not solely 
affected religious properties. It is also a current problem of 
ongoing violations. Much attention has been given to Raul 
Castro's announced property reforms, but less attention has 
been given to the detail of these reforms and their impact, 
potential and real, on ordinary Cubans. This subcommittee has a 
key role to play in putting a spotlight on those details and 
highlighting how, even today, Cubans continue to be vulnerable 
to the arbitrary expropriation of their property by government.
    Even as the administration continues to pursue a dialogue 
with the Cuban Government, it is key that human rights, 
including property rights and religious freedom, be a central 
component of that dialogue. I would respectfully ask that the 
members of this subcommittee continue to hold the 
administration accountable for the content of the dialogue and 
any agreements. And at the same time, you make it clear to the 
Cuban Government, through statements or letters, these actions 
are not going unnoticed. Thank you.
    [The prepared statement of Ms. Stangl follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                              ----------                              

    Mr. Duncan. I want to thank all the panelists.
    As you may have heard, there was a murder of nine people in 
my State yesterday evening, and I am going to have to step out 
of the hearing.
    I am going to ask Mr. Yoho to accept running the rest of 
the hearing.
    I want to thank the panelists before I leave. Your 
testimony was valuable, and I have enjoyed learning about this 
issue, and I stand passionately with for you for your property 
rights.
    With that, I will turn this over to Mr. Yoho.
    Mr. Yoho [presiding]. I appreciate your being here and 
testifying. And I hear your stories, and it rips at the 
heartstrings. And, you know, being here on this panel of 
Foreign Affairs, over the last 2 years, we have heard these 
stories about Cuba and what is going on. And I find it 
disheartening that this administration announced normalizing 
relationships with Cuba back in December 2014.
    The Obama administration announced a new Cuba policy to 
move toward normalization relationships between U.S. and Cuba, 
and reestablishing diplomatic relations with Cuba. We have got 
a law that already states how we go about that. It was the 
Cuban Liberty and Solidarity Act of 1996. And it states in 
there that once Cuba moves toward normalizing their government 
in a transitional government and having a Democratic process, 
we will move into that direction. We haven't done that. And so, 
again, we see a situation where we are putting the cart before 
the horse. And once you get to that point, it is hard to go 
back.
    In addition to that, when President Obama talked about 
normalizing this is a failed policy after 50 years is what he 
has felt like with our policies toward Cuba. I look back at 
what Raul Castro said; he started making demands on us wanting 
to normalize relationships with Cuba. I have got to give him 
credit for having that kind of gravitas--I won't say another 
word--but for him to have that kind of a backbone and say: You 
are not going to normalize relationships with us until you do 
this. I think, wait a minute, we are the ones with the cookie. 
We are the ones that, had we followed through on the sanctions 
that were put in place and put more pressure on countries that 
were dealing with Cuba, it might have had a different outcome, 
and we might have a transitional government in place.
    And I look and I understand where you guys are coming from, 
and I stand 100 percent with you. Before we move forward, these 
things have to be negotiated. And they should be at the 
negotiating table before we start normalizing relationships 
with Cuba. I would think that we would--we would be the ones in 
the driver's seat. We are the ones that should be dictating 
that we will normalize these relationships with Cuba if you 
compensate people for property that was stolen.
    Coming from Florida, I lived in south Florida growing up, 
and we have just had a tremendous amount of Cuban friends, 
hard-working people--I live up in north central Florida now. 
The Cuban population is everywhere, great people, hard-working, 
and they love their country, their ancestry. We want to make 
sure that, as we move forward, that we take care of those 
things. I think that anything that this body does--speaking for 
myself, not for this committee--anything that we do in 
government here should be to make sure that that wrong gets 
righted so that the people that had that property stolen gets 
put back into their hands. And thank you.
    I have got a few questions here. Adequate compensation for 
U.S. claims: What would a responsible and just outcome look 
like for the thousands of Americans who have had their property 
stolen--and we will use the word ``stolen''--by the Castro 
regime? Dr. Garcia.
    Dr. Garcia-Bengochea. Well, that's a complicated question. 
Obviously, there are formulas. There is an international 
formula. I think we have to get our arms around what is the 
enormity of the problem. How many claims are still actively 
being pursued? There are several layers to this onion, of 
course. There is the strict economic damages; how much the 
claims were at the time? They were grossly undervalued at the 
time.
    Mr. Yoho. Right.
    Dr. Garcia-Bengochea. What has happened to them since then, 
obviously. The economic damages to the claimants. Ironically, 
the best source for that probably is the very thieves 
themselves, the Cuban Government. They claim that they are owed 
$1.1 trillion in damages from the embargo. That's damages to 
the claimants; that's the property owners, the private 
industry.
    Mr. Yoho. And, again, it goes back to the gravitas of the 
Castro regime saying: Oh, we have been damaged instead of 
looking the other way.
    Dr. Garcia-Bengochea. Excuse me, Mr. Chairman, that is the 
most disingenuous argument.
    Mr. Yoho. It really is, and I agree with you. Let me ask 
one other question here. With the U.S. legislation on the 
property claims issue that's in the House and the Senate--are 
you guys familiar with that?
    Dr. Garcia-Bengochea. Yes.
    Mr. Yoho. It is H.R. 2466, that would require a claim for 
resolving U.S. property claims before the President could 
further ease restrictions on travel and trade. Do you guys have 
any view on that? Have you guys in your communities looked at 
that? Does anybody want to respond to that?
    Dr. Garcia-Bengochea. If I may.
    Mr. Yoho. Yes, sir.
    Dr. Garcia-Bengochea. Yes, in fact. This is not a left, 
right, Republican, Democrat issue. This is the blocking and 
tackling the very foundation of economic relationships. One 
layer of this onion, as I said, are the certified claims, but 
there are hundreds of thousands of Cubans in exile who owned 
property. And there are millions of Cubans in Cuba who own 
property who are disenfranchised. I don't know how we can look 
into disenfranchising these people, putting them on the 
sidelines and opening up a so-called economic tie. This is 
crony capitalism to create these rules that exclude some people 
but favor others, and this is truthfully what has been going 
on.
    Mr. Yoho. You brought up a great point, it comes down to 
the rule of law. And if you don't have a government that 
follows the rule of law, you get into these situations. And 
that is why it goes back to before we move forward, we need to 
make sure they have a good transitional government that is 
going to go respect property rights and follow that rule of 
law.
    I am going to pass this on to the ranking member, Mr. 
Sires.
    Mr. Sires. Thank you, again, Mr. Chairman.
    I just want to assure the panelists that we are not giving 
up on this.
    Ms. Chester Lamb. Thank you.
    Mr. Sires. We are committed. We continue to fight. Where it 
ends hopefully will be a place where we all can be, you know, 
comfortable with.
    I really don't know how we negotiate, you know, with the 
Cuban Government. But we seem to give into everything and not 
get anything in return. I am very uncomfortable with that.
    Some people say the embargo is 50 years, 55 years, 
whatever. I understand that. But we do have embargoes in Iran. 
We do have embargoes--sanctions in Russia, and we are not going 
to remove anything from those countries until we get something 
back. I don't understand why the same premise cannot be toward 
Cuba. If we are going to lift some of these things that we 
currently have in Cuba, why not get something in return? And 
certainly property value is one of the issues that is most 
prominent.
    Like I stated before, my parents lost their house, you 
know, I don't think we will ever get it back. But there are 
people who lost a lot more than we did, and I am going to 
certainly fight for those people that lost----
    Can you just tell me what has been the biggest challenge 
for you? Yes, go ahead.
    Ms. Chester Lamb. Everyone talks about Cuba, and who is 
behind this, and the President wants freedom. Honest to 
goodness, it is U.S. businesses and their multinational 
subsidiaries that have spent hundreds and hundreds of thousands 
on attorneys to lobby to end the embargo. A lot of this is--the 
people behind it is big business. And guess what, we are just 
an obstacle; move us out of the way so they can make way for 
commerce. So that is the biggest obstacle is that we are up 
against big money, and you know how that usually goes.
    So that's why I appreciate the fact that you all are 
actually here trying to find justice for us because, in all my 
research--and I have been doing this since 2008--it is just 
amazing how many people are actually U.S. businesses that are 
in Cuba investing right now because American lawyers that are 
experts have shown them the loopholes. This is how you can 
invest in Cuba now. Why? Because when the economy opens up and 
trade opens up, you will have a foothold.
    If you notice, by now everyone does, that the Cuban 
Communists, they control monopolies, so it is a perfect 
situation for a U.S. business to go in there and do business 
with the Cuban Government because, therefore, they are in a 
monopoly, and they have no competition. There is a lot of big 
money that is behind this, and they would like to see us go 
away. And that, to me, is the biggest obstacle.
    Ms. Rosoff. I think we also face an obstacle in that the 
perception in the American public is that the Cuban claims are 
ancient history and that nobody really pays attention to them 
anymore, but it is very real for us. My mother is still alive. 
She, you know, still shares stories about what happened to 
them. We grew up with this, and it is our current history, and 
I think people don't know what happened. There is perception 
that, you know, Cuba was just an American playground and that 
people didn't have lives there; they didn't invest there, you 
know. Not everybody that was in Cuba in the 1950s were 
gangsters and, you know, gamblers. People built lives. These 
were real lives of Americans, and they lost everything there. 
And their generation and descendants were all affected by this. 
I think those perceptions are really been promoted recently in 
a lot of stories and in the romantic notion of Cuba as this 
beach playground.
    Mr. Sires. I couldn't agree with you more.
    Ms. Stangl. I think as far as the biggest obstacle we face 
in raising these issues is fear. We are working with Cubans 
still in Cuba who have managed in some way to retain what 
little they can. We are talking about church properties that 
are in disrepair because the government's refused to allow them 
to make any reparations--repairs on those buildings. 
Overcrowded, very kind of bad circumstances.
    A number of pastors we reached out to about this hearing 
and asked if they would be willing to come testify, and they 
are too afraid because they are afraid that what little they 
have managed to hold on to will be taken away from them. Their 
fear is justified. We have seen just this year since the 
negotiations began, things have gotten worse. So we have had 
many, many more properties suddenly being confiscated and many 
more threats of confiscation. And as long as that continues, I 
don't see how the Cuban Government can be thought to be 
credible.
    Dr. Garcia-Bengochea. Well, I was going to echo those 
sentiments and add that the notion of investing in a country 
with no property rights is absolutely ludicrous. Aside from the 
fact Cubans have no money, but there is a capricious nature to 
this. How these claims are settled is probably in the grand 
scheme when I am dead and gone more important to American 
businesses and entities that look to invest in Cuba, much less 
the Cuban--the burgeoning Cuban entrepreneur, the poor guy, the 
taxi driver--it is probably more important to them in the long 
run than it is to the existing claimants how we handle this. 
This is an absolute fundamental issue.
    And, again, I wouldn't pit it as partisan. It is not for or 
against the embargo. This is the rules of the road. We have got 
to understand them before we move forward in this.
    Mr. Sires. Thank you.
    Mr. Yoho. Good answers. They have called votes.
    We are going to go to Mr. DeSantis from Florida, but before 
we go there, what you just brought up is what this is all about 
because if we set a bad precedent here, what happens in China 
with American businesses that sit up there? If China says, You 
know what, we are going to take--or any other foreign country 
or what happened in Crimea with Ukraine and Russia, you know, 
if we don't stand strong as the American Government and say, we 
are not going to tolerate this. This sets that precedent for 
future generations, as you pointed out, and I appreciate that.
    Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    And thanks to the witnesses.
    Dr. Garcia, when you see a lot of the American businesses 
lobbying to do business in Cuba, knowing that they may be using 
the port that you have rights to or other confiscated property, 
what do you think of that?
    Dr. Garcia-Bengochea. Well, I think it is outrageous. It is 
not only hypocritical; imagine if the roles were reversed. This 
is not who we are. If we are--as the President appears to have 
converted and become American exceptionalists, that we will go 
over there and convert the Castros and convert the Cubans. 
Well, this is not who we are. We are not people who traffic in 
stolen property. We are not opportunists at the very best. So 
it is disgraceful, truthfully, it really is. It violates every 
business, ethical, and moral principle that we have constructed 
our society from.
    Mr. DeSantis. It is not really a free market, you know, 
free market openings constrained by the rule of law. It is 
really just cronyism, where you have a corrupt regime and there 
is a profit arrangement with a private entity. But, ultimately, 
that is as you said the whole basis of that is capricious.
    Dr. Garcia-Bengochea. It is Putinesque. It is what is 
happening in Russia. It is crony capitalism. At the very best, 
it is a sinister form of trickle-down economics. You are 
engaging a military oligarchy. We think of the Cuban Government 
as this state. The government itself is an enormous bureaucracy 
that insulates these military oligarchical families from the 
Cuban people. They operate in an entirely different orbit, and 
that is who we are dealing with. That violates every principle 
we stand for.
    Mr. DeSantis. If you left the hearing and, as you were 
going, the President's motorcade popped out and you had a 
minute to talk to him, what would you say to the President 
about this issue?
    Dr. Garcia-Bengochea. I would tell him that, first of all, 
history repeats itself, human nature remains the same through 
time, and he's forgotten the history here. And if he is really 
concerned about growing prospects for American business and for 
helping the Cuban people, he has to get back to this 
fundamental social contract of property rights. It is one of 
the most innate human sentiments and experiences we have, 
children fighting over a toy. Once you set the rules of the 
road, there is harmony. He needs to set back and use this as 
the foundation, as the cornerstone of building a new 
relationship with a free and democratic Cuba. Let's face it, 
there are no free markets without free people. It really boils 
down to that. And so that's what I would tell him, go back to 
the blocking and the tackling the fundamentals, our DNA, and 
construct from there and get more peripheral maybe esoteric in 
your objectives.
    Mr. DeSantis. That's what is concerning me about the policy 
is we are not--we are ignoring this basic building block of 
property rights. And, yet, if you look at the political 
repression, that has increased since the change in policy. And 
so you are not laying the foundation where you have a rule of 
law and property rights. And you are certainly not in a 
situation where the Cuban people are now able to exercise 
political or religious freedom. I mean, it has not gone in the 
right direction so I think it's been a lose-lose so far.
    Ms. Chester, I really appreciated your testimony. What 
would you say to the President about this issue if you could 
talk to him?
    Ms. Chester Lamb. I would ask him why he responded to my 
email by calling me a Cuban exile. I'm an American. I am not 
Cuban.
    Then I would ask him why he's not paying attention to the 
law the Foreign Claims Settlement Commission due diligence 
many, many years. My parents had to go through a lot of work to 
prove what their losses were. Why is that being ignored? Why 
have we been ignored for so long?
    I am actually tired of this issue. I don't really want to 
sit here for months and months to figure this out. I want it to 
be figured out. I want us to be paid, and somebody else figure 
it out because right now there's 5,913 claimants that you are 
dealing with. So you don't really want to deal with 5,913 
people, I don't think. So we need to be paid, and if somebody 
else can take that debt since we have been holding it for 56 
years, then they can deal with the Cuban Government because we 
are tired of waiting.
    Mr. DeSantis. What is more important, the money or the 
admission of wrongdoing by the Cuban Government?
    Ms. Chester Lamb. You know, it is kind of hard to fight the 
Castro propaganda machine. When you take over newspapers, and 
televisions and radio stations, it is really hard to rewrite 
history or change people's mind.
    Mr. Yoho. Ms. Lamb, I am going to have to cut you off there 
so we have time for Ms. Kelly from the State of Illinois for a 
few minutes before votes.
    Ms. Kelly. I don't really have a question, but just to say 
that I represent a family who had a textile business, Flamingo 
Knitting Mills, and was seized in 1959 in Havana. So the issue 
of normalizing relations is quite personal to this family as it 
is to so many families in America. And even, you know, okay, 
they get a lump-sum payment, but even if they got the property 
back, the property is something else now, so what would they do 
with it? They can't kick--they wouldn't kick people out, or you 
know, it still wouldn't be the same from before.
    Ms. Chester Lamb. Right, exactly.
    Ms. Kelly. I yield back.
    Mr. Yoho. I thank you.
    I appreciate you guys being here, speaking and expressing 
your sentiments of what is going on there.
    I am a sponsor of H.R. 2466, which is the U.S. legislation 
on the property claims issue. So make sure you follow that. Get 
people to support it.
    And pursuant to committee rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record.
    Without objection, the hearing will remain open for 5 
business to allow statements, questions, and extraneous 
material for the record, subject to the length limitation in 
the rules.
    There being no further business, the subcommittee is 
adjourned, and we thank you for participating.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <Hoarfrost><F-dash><Register>\
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     <F-dash>\<Hoarfrost>ta<Rx><bullet><script-l><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

   Material submitted for the record by Ms. Anna-Lee Stangl, senior 
  advocacy officer for the Americas, Christian Solidarity Worldwide-UK
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     <F-dash>\<Hoarfrost>ta<Rx><bullet><script-l><ellipse><ellipse>
                     <F-dash><func.-of><Register>\

   Material submitted for the record by Ms. Anna-Lee Stangl, senior 
  advocacy officer for the Americas, Christian Solidarity Worldwide-UK

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     <F-dash>\<Hoarfrost>ta<Rx><bullet><script-l><ellipse>
                     <F-dash><func.-of><Register>\

   Material submitted for the record by Ms. Anna-Lee Stangl, senior 
  advocacy officer for the Americas, Christian Solidarity Worldwide-UK

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
      
      
    Note: Material submitted for the record by the Honorable Jeff 
Duncan, a Representative in Congress from the State of South Carolina, 
and chairman, Subcommittee on the Western Hemisphere, is not reprinted 
here but is available 
in committee records or may be accessed by a link on the following 
Internet page: 
http://docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=103642.
      
      
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
